                            U.S. Department of Agriculture

                                Office of Inspector General
                                           Northeast Region




                Audit Report

Review of the U.S. Department of Agriculture’s
Accountability for Actions Taken on Civil Rights
                   Complaints




                                 Report No. 60601-04-Hy
                                              May 2007
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                     OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20250




May 14, 2007

REPLY TO
ATTN OF:       60601-04-Hy

TO:            Margo M. McKay
               Assistant Secretary
               Civil Rights

ATTN:          Debbie Hamilton
               Executive Assistant
               Civil Rights

FROM:          Robert W. Young /s/
               Assistant Inspector General
                 for Audit

SUBJECT:       Review of the U.S. Department of Agriculture’s Accountability for Actions Taken
               on Civil Rights Complaints


This report presents the results of our review of the U.S. Department of Agriculture’s
Accountability for Actions Taken on Civil Rights Complaints. Your written response, dated
May 1, 2007, is included as Exhibit D with excerpts of the response and the Office of Inspector
General’s position incorporated into the Findings and Recommendations section of the report,
where applicable.

We have reached management decision for Recommendations 1, 3, and 4. Please follow your
agency’s internal procedures in forwarding documentation for final action to the Office of the
Chief Financial Officer.

In order to achieve management decision on Recommendations 2, 5, 6, 7, and 8, please furnish a
reply within 60 days describing the timeframes required to implement the proposed corrective
actions. Please note that Departmental Regulation 1720-1 requires a management decision to be
reached on all recommendations within a maximum of 6 months from report issuance and
completion of final action within 12 months of management decision.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
U.S. Department Agriculture’s Accountability for Actions Taken on Civil Rights
Complaints (Audit Report No. 60601-04-Hy)

Results in Brief                   Processing civil rights complaints within established 1 timeframes has been a
                                   long-standing concern at the U.S. Department of Agriculture (USDA). In
                                   February 1997, the Secretary’s Civil Rights Action Team identified USDA’s
                                   inability to process Equal Employment Opportunity (EEO) complaints timely
                                   and effectively, noting that it took an average of nearly three years to
                                   complete a case. In March 2000, 2 we reported on the Office of Civil Rights’
                                   (CR) efforts to process and track EEO complaints. Our report highlighted
                                   weaknesses in CR’s operating environment for tracking and processing its
                                   complaint inventory. At that time, CR took an average of two years to close a
                                   case, its file room was not properly managed, and case files were disorderly
                                   and improperly stored. We found that 18 case files were missing and case
                                   files were stored in employees’ office spaces and in a borrowed shopping
                                   cart. Our current work disclosed that although CR’s processing time to
                                   complete a case has fallen from three years 3 in 1997 to slightly under
                                   1.5 years in 2006, its efforts have not been sufficient to ensure that EEO
                                   complaints are effectively tracked and timely processed.

                                   CR has the responsibility for developing civil rights policy, providing
                                   coordination and leadership for equal opportunity and civil rights activities,
                                   providing technical assistance and training to USDA agencies, ensuring
                                   compliance with applicable regulations, and investigating and resolving
                                   complaints regarding USDA employment and programs operated or assisted
                                   by USDA.

                                   In response to a request from two U.S. Senators, we identified and evaluated
                                   the adequacy of USDA’s controls over tracking and processing EEO
                                   complaints. In making this assessment, we analyzed EEO complaint data in
                                   CR’s complaint processing and tracking system (i.e., the Civil Rights
                                   Enterprise System (CRES)) for formal cases with initial contact dates4 from
                                   the start of fiscal year (FY) 2004, through the end of the third quarter of
                                   FY 2006. This universe of complaints totaled 1,481 open and closed cases. In
                                   addition, we selected a sample of 64 complaints 5 for a detailed analysis to
                                   determine whether the documentation on file supported the information in the
                                   system. For the cases in our sample, we reconciled data recorded in the CRES
                                   to documents in the physical case files and determined whether the case files
                                   contained required documentation. We found that material weaknesses
1
  Required timeframes for processing EEO complaints are established in 29 Code of Federal Regulations (C.F.R), Part 1614, Federal Sector Equal
  Employment Opportunity.
2
  Audit Report No. 60801-03-Hq, Office of Civil Rights Management of EEO complaints, issued March 2000.
3
  Years are based on calendar days.
4
  Initial contact date is the date a complainant first contacts an EEO counselor.
5
  We used the software application, Audit Command Language (ACL), to select our sample. ACL analysis of the number of complaints in the universe
  assisted in our decisions on the number of complaints to review and the specific complaints to be selected for review.

USDA/OIG-A/60601-04-Hy                                                                                                                 Page i
                                        continued to persist in CR’s control structure and environment. Specifically,
                                        CR had not: (1) established the necessary framework to monitor the
                                        processing of complaints and to intervene when established timeframes were
                                        not met, (2) sufficiently strengthened its controls over the entry and
                                        validation      of     data    in     its    information      system,      and
                                        (3) established adequate controls to ensure case files could be located timely
                                        and the files contained the required documentation. As a result, CR cannot
                                        effectively track and timely process EEO complaints. We included in Exhibit
                                        A the statistical data requested by the U.S. Senators on the bases of
                                        discrimination for the universe of complaints we reviewed.

                                        Processing Timeframes

                                        •    CR did not meet established timeframes for processing EEO complaints.
                                             The CR Director attributed this condition to several factors, including
                                             unrealistic timeframes established by the Equal Employment Opportunity
                                             Commission (EEOC), a substantial inventory of backlogged complaints,
                                             an influx of new cases, staffing and resources, as well as individual
                                             agencies not meeting their responsibilities. 6 The CR Director stated that
                                             through the Office of the Assistant Secretary for Civil Rights (ASCR)
                                             Strategic Plan, 7 its weaknesses in timely processing of complaints will be
                                             corrected in the next five years. However, CR did not have a formal plan
                                             with action items and reasonable and measurable milestones to address its
                                             complaint processing delays. We also determined that CR did not have an
                                             adequate monitoring framework to track the processing of complaints and
                                             to intervene when timeframes were not met. We found that CR’s
                                             processing time to complete a case averaged 504 days or just under 1.5
                                             years; a significant improvement over the 3 years reported in 1997.
                                             However, this average still exceeds the 270-day processing timeframe
                                             established by the EEOC. 8 As of August 2006, 304 of the 582 open
                                             cases 9 had an average age of 534 days with resolution still pending. 10

                                        Complaint Tracking

                                        •    In February 2005, CR began implementation of the CRES, a web-based
                                             application that allows USDA agencies and CR to use one automated
                                             system for processing and tracking EEO complaints at both the informal


6
     The processing of EEO complaints is a shared responsibility of USDA. Agencies are responsible for the processing and entry of data in CRES during
     the informal stage, and for investigations and hearings during the formal stage. CR is responsible for processing and entering data in CRES for the
     acceptance or dismissal of complaints and final agency decisions during the formal stage. CR has the overall responsibility for ensuring that USDA is
     accurately reporting on its EEO activities and timely processing its EEO complaints.
7
     The ASCR Strategic Plan is a document used by the ASCR to align its organization and budget structure with organizational priorities, missions,
     measurable objectives, and strategies to achieve these objectives.
8
     According to the CR Director, the 270-day timeframe does not account for the 5-10 days it takes to send and receive complaint related information
     through the U.S. mail. We found this was not specifically addressed in EEOC regulations.
9
     Open cases have not been settled by the agency, adjudicated by CR, or withdrawn by the complainant.
10
     In establishing the average amount of time for cases that have exceeded the established timeframes for complete resolution, we only included cases that
     were within CR’s control (i.e., we excluded cases that involved a decision by an EEOC administrative judge).

USDA/OIG-A/60601-04-Hy                                                                                                                           Page ii
                                             and formal stages. 11 CR uses CRES to complete and file required reports
                                             such as the annual report on the status of informal and formal EEO
                                             complaints. 12 However, we determined that CR implemented CRES
                                             without sufficient business rules 13 to ensure the sufficiency of the
                                             complaint data. For example, from the universe of 1,481 cases in CRES,
                                             we found that informal alternative dispute resolution (ADR) data was not
                                             entered for 625 cases. Omitted entries for this data element give the
                                             appearance that ADR was not offered to the complainant. According to
                                             EEO complaint processing procedures, 14 agencies are required to offer, or
                                             decide not to offer, 15 ADR to aggrieved persons during the informal stage
                                             of complaint processing. A business rule could have been set in the
                                             system to require an entry for ADR before an end user could enter data in
                                             CRES associated with other stages of the EEO process. In order to ease
                                             the transition to CRES for USDA agencies, a CR official stated that the
                                             agency planned to phase in the necessary business rules. We found,
                                             however, CR did not have a plan for identifying, developing, testing, and
                                             implementing the needed business rules.

                                       •     We selected a sample of 64 cases in order to reconcile information
                                             recorded in CRES with documentation recorded in the case file. CR was
                                             not able to locate two case files; however, one of these case files was
                                             recreated by CR. 16 Therefore, we reviewed 63 of the 64 cases. For 11 of
                                             the 63 cases, data recorded in CRES was not supported by documentation
                                             in the physical case file. For example, for one complaint, the
                                             complainant’s race recorded in CRES was White, whereas the
                                             documentation in the case file supported that the complainant’s race was
                                             African-American. Other examples of erroneous data included the initial
                                             contact dates, formal filing dates, acceptance dates, reports of
                                             investigation (ROI) issuance dates and hearing request dates. According
                                             to established management control procedures,17 managers are
                                             responsible for ensuring the accuracy of data recorded. The errors in the
                                             information system occurred because CR had not implemented a process
                                             to validate the accuracy of information entered into CRES. As a result,
                                             CRES was not always a reliable source of information about EEO
                                             complaints at USDA.




11
     According to CR officials, CRES was fully implemented the end of June 2005.
12
     According to CR officials, prior to the implementation of CRES, agencies did not have an enterprise system to track informal EEO complaints.
13
     Business rules are protocols installed in the system to prevent omissions of data by end users for required stages in the EEO process.
14
     Departmental Manual (DM) 4300-1, EEO Complaint Processing Procedures, Chapter IV, Informal EEO Complaint Process, dated July 20, 2001.
15
     Agencies are not required to offer informal ADR if the complaint involves violence or criminal activity.
16
     In March 2007, CR provided us with the one missing case file that was not recreated. Based on our review, we found that this case file did not contain
     the initial formal complaint, initial acceptance letter of the complaint, and the initial ROI for us to review. However, for the documentation we were
     able to review, the data entered in CRES was accurate.
17
     Departmental Regulation (DR) 1110-002, USDA Management Control Manual, Chapter 2, dated November 29, 2002.

USDA/OIG-A/60601-04-Hy                                                                                                                         Page iii
                                       Physical Case Files

                                       •     According to CRES, CR was storing over 5,700 closed case files that
                                             have exceeded the four year retention requirement 18 as of October
                                             2006. 19 CR, however, has not developed a plan with action items and
                                             timeframes for destroying these closed cases. CR also needs to perform a
                                             physical inventory of complaints and case files to ensure that additional
                                             cases, not identified by CRES, do not also need to be destroyed.

                                       •     Our review disclosed that CR has made some progress since our
                                             March 2000 report towards organizing and properly storing case files.
                                             However, based on our sample, we found that CR has not established
                                             adequate controls over its file room operations to ensure that physical
                                             case files can be located timely and that the files contain the
                                             documentation required for processing the complaints. A Departmental
                                             regulation 20 requires that records shall be filed using standardized
                                             procedures and techniques so that they are easily retrievable. CR needed
                                             more than a month to locate 13 of the 64 case files selected for review
                                             and initially could not locate 2 case files. CR recreated one of the missing
                                             case files and provided the second in March 2007 (originally requested in
                                             September 2006). To address this weakness, CR needs to develop and
                                             implement procedures to track and control the physical location of files.
                                             Our review of the 63 available case files disclosed that 21 did not contain
                                             all of the required complaint processing documentation to reconcile with
                                             CRES, e.g., acceptance of complaint letters and ROIs. To address this
                                             weakness, CR needs to implement processes and procedures to control
                                             case file organization and the flow of documents associated with
                                             processing EEO complaints to include receipt, transfer, filing, and
                                             safeguarding of documents in the case file.

                                       The U.S. Senators also requested that we identify and evaluate USDA’s
                                       process to hold employees accountable for discriminatory actions toward
                                       other employees or in administering USDA programs. This process,
                                       implemented January 18, 2006, consists of CR referring any findings of
                                       discrimination to the appropriate Human Resource (HR) office. The HR
                                       director then reviews the case and determines whether disciplinary action is
                                       appropriate for the act of discrimination and reports the results to CR and
                                       USDA’s Office of Human Capital Management. We determined that
                                       USDA’s policy for holding employees accountable for discriminatory actions
                                       was adequate; however, we could not fully evaluate the process because only
                                       two cases involving discriminatory action by an employee have been referred

18
     The National Archives General Records Schedule 1, Item 25, EEO Complaints.
19
     The General Records Schedule requires that EEO cases be destroyed four years from the date they are closed. However, at the exit conference, CR
     officials stated that a closed case in CRES is not necessarily ready for destruction. For example, a case currently in court litigation should not be
     destroyed. CR officials stated that they plan to address how cases are defined in CRES (i.e., closed) as they respond to the findings and
     recommendations in our report.
20
     DR 3080-001, Records Management, dated April 30, 2004.

USDA/OIG-A/60601-04-Hy                                                                                                                         Page iv
                                     by CR since the policy was implemented. We found that disciplinary action
                                     against the employees involved was not taken because one employee retired
                                     and the other no longer works for USDA. Prior to January 18, 2006, CR was
                                     not involved in the process for determining employee disciplinary actions.
                                     This process was handled by the agencies’ HR offices. Accordingly, we did
                                     not make any recommendations for this objective.

                                     At the request of the two U.S. Senators, we also reviewed USDA’s
                                     implementation of a recommendation in EEOC’s Onsite Report, dated
                                     February 26, 2003. The recommendation was to ensure that there was proper
                                     separation between the Office of the General Counsel (OGC) and CR
                                     regarding legal sufficiency reviews of reports of investigation and final
                                     agency decisions. Information provided by CR and OGC personnel disclosed
                                     that this recommendation has been implemented and OGC has created a
                                     separate and independent unit within OGC to conduct legal sufficiency
                                     reviews. Accordingly, we are not making any recommendations on this
                                     matter.

                                     Finally, we evaluated allegations made in three Hotline Complaints. We
                                     received two in June 2006 and one in December 2006.

                                     •    The first complaint alleged that CR was settling cases when the cases
                                          reached the formal stage instead of the informal stage, which is costing
                                          USDA thousands of dollars. We found, as outlined in a Departmental
                                          manual, 21 that the individual USDA agencies are responsible for entering
                                          into settlement agreements, not CR. The complaint also alleged that CR
                                          was compiling “Annual Federal Equal Employment Opportunity
                                          Statistical Report of Discrimination Complaints” (EEOC 462 report)
                                          submitted by individual agencies without review. We found that CR
                                          generates the EEOC 462 report from CRES for the Department. CR did
                                          not compile reports submitted by individual agencies; therefore, there was
                                          no need for CR to review the individual agency reports for this purpose.
                                          Accordingly, we are not making any recommendations related to this
                                          complaint.

                                     •    The second and third complaints alleged that the software application for
                                          reporting data on the “Federal Agency Annual EEO Program Status
                                          Report” (EEOC MD-715 report) was flawed. We found that CR identified
                                          errors in the preparation of the EEOC MD-715 report and continues to
                                          work with the contractor to upgrade the system to ensure that the
                                          information provided to EEOC is accurate. Accordingly, we are not
                                          making any recommendations related to these complaints.

                                     Timely processing of EEO complaints has been a long-standing concern at
                                     USDA. Although improvements have been made, we found that CR’s efforts
21
     DM 4300-001, EEO Complaint Processing Procedures, dated July 20, 2001.

USDA/OIG-A/60601-04-Hy                                                                                       Page v
                   to ensure that employee complaints are effectively tracked and timely
                   processed have not been sufficient and material weaknesses continue to
                   persist in CR’s control structure and environment. Specifically, CR had not
                   established the necessary framework to monitor the processing of complaints
                   so that its personnel can intervene when established timeframes are not being
                   met. In addition, CR had not sufficiently strengthened its controls over the
                   entry and validation of data in CRES or established adequate controls to
                   ensure case files could be located timely and contained all of the required
                   documentation.

Recommendations
In Brief           To address weaknesses in CR’s ability to timely process complaints, the
                   agency should develop a detailed formal plan to process EEO complaints
                   timely and effectively. CR should also implement a monitoring framework to
                   track the processing of complaints and intervene when timeframes are not
                   being met. When interventions are needed, the monitoring framework should
                   require reporting to the CR Director on the reasons timeframes were
                   exceeded.

                   To strengthen controls over the entry and validation of data in CRES, CR
                   needs to identify the business rules and implement a plan for testing and
                   applying these rules. In addition, CR needs to implement a process for
                   validating the accuracy of information entered in CRES.

                   CR needs to develop and implement procedures to control and monitor case
                   file documentation and organization, including procedures to document
                   which CR divisions or units are responsible for receiving, transferring, filing,
                   and safeguarding documents in the file folder. CR should perform a physical
                   inventory of its documentary case files to identify which of the 5,700 case
                   files, depicted in CRES as closed in excess of four years, need not be
                   retained. To improve the organization of its file storage areas, CR should
                   implement an action plan to destroy the unneeded files and develop a method
                   for continued monitoring of the retention status of its case files.

Agency Response
                   CR agreed with the report’s eight recommendations. We have incorporated
                   excerpts from CR’s response in the Findings and Recommendations section
                   of this report, along with the OIG position. CR’s response is included as
                   Exhibit D.

OIG Position
                   Based on CR’s response, we were able to reach management decision on
                   Recommendations 1, 3, and 4 of the report’s eight recommendations. To
                   reach management decision for Recommendations 2, 5, 6, 7, and 8, CR needs
                   to provide a timeline with milestone dates for significant steps for



USDA/OIG-A/60601-04-Hy                                                                     Page vi
                   implementing those actions that are not scheduled to be completed within the
                   next year.




USDA/OIG-A/60601-04-Hy                                                                 Page vii
Abbreviations Used in This Report


ACL               Audit Command Language
ADR               Alternative Dispute Resolution
ASCR              Assistant Secretary for Civil Rights
C.F.R             Code of Federal Regulations
CAD               Complaints Adjudication Division
CR                Office of Civil Rights
CRES              Civil Rights Enterprise System
DM                Departmental Manual
DR                Departmental Regulation
ECD               Employee Complaints Division
EEO               Equal Employment Opportunity
EEOC              Equal Employment Opportunity Commission
FAD               Final Agency Decision
FY                Fiscal Year
HR                Human Resource
OCFO              Office of the Chief Financial Officer
OGC               Office of the General Counsel
OIG               Office of Inspector General
ROI               Report of Investigation
USDA              U.S. Department of Agriculture




USDA/OIG-A/60601-04-Hy                                      Page viii
Table of Contents

Executive Summary ................................................................................................................................ 1

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1.           Controls for Timely Processing Complaints............................................................ 4

        Finding 1             EEO Complaints were Not Timely Processed ........................................................ 4
                                 Recommendation 1 .......................................................................................... 7
                                 Recommendation 2 .......................................................................................... 8

    Section 2.           Controls Over Complaints Tracking System ........................................................ 10

        Finding 2             Insufficient Business Rules for CRES .................................................................. 10
                                  Recommendation 3 ........................................................................................ 12
        Finding 3             CRES Data Not Supported by Case File Documentation ..................................... 12
                                  Recommendation 4 ........................................................................................ 13

    Section 3.           Controls Over Physical Case Files.......................................................................... 15

        Finding 4             CR’s File Room Operations were Not Efficient ................................................... 15
                                  Recommendation 5 ........................................................................................ 16
                                  Recommendation 6 ........................................................................................ 17
                                  Recommendation 7 ........................................................................................ 17
        Finding 5             Physical Case Files Did Not Contain Required Documentation........................... 18
                                  Recommendation 8 ........................................................................................ 18

Scope and Methodology........................................................................................................................ 20

Exhibit A – Complaints by Bases of Discrimination for our USDA Universe ................................ 22

Exhibit B – The Office of Civil Rights’ Process for a Formal EEO Complaint.............................. 25

Exhibit C – Glossary of Terms ............................................................................................................ 26

Exhibit D – Agency’s Response ........................................................................................................... 28




USDA/OIG-A/60601-04-Hy                                                                                                                   Page ix
Background and Objectives
Background                            The U. S. Department of Agriculture’s (USDA) Office of Civil Rights (CR)
                                      is responsible for resolving all complaints of discrimination that are made
                                      against USDA. These complaints generally fall into two main categories:
                                      (1) complaints of discrimination in the award or distribution of Federal
                                      program benefits (program complaints), and (2) complaints of discrimination
                                      arising from the terms, conditions, and privileges of employment (EEO
                                      complaints).

                                      Title VII of the Civil Rights Act of 1964, as amended, prohibits employment
                                      discrimination based on race, color, religion, sex, or national origin. The Age
                                      Discrimination in Employment Act of 1967 prohibits employment
                                      discrimination against individuals who are 40 years of age or older. The
                                      Rehabilitation Act of 1973, as amended, prohibits employment
                                      discrimination based on disability. Employment discrimination complaints
                                      are processed under the Equal Employment Opportunity Commission’s
                                      (EEOC) regulations found in Title 29 Code of Federal Regulations, Part
                                      1614-Federal Sector Equal Employment Opportunity (EEO).

                                      The Secretary of Agriculture's Memorandum 1030-57, dated
                                      March 7, 2003, gave the Assistant Secretary for CR (ASCR) the full authority
                                      and responsibility for leadership and oversight of USDA’s civil rights, equal
                                      employment opportunity, outreach, and alternative dispute resolution (ADR)
                                      functions. CR accepts or dismisses, investigates, and adjudicates complaints
                                      of discrimination arising out of USDA employment and Federally-assisted or
                                      conducted programs. Complaints may be initiated by USDA employees,
                                      applicants for employment, and USDA program participants and customers.

                                      CR prepares USDA’s “Federal Agency Annual EEO Program Status Report”
                                      (EEOC Form MD-715 report), the “Annual Federal Equal Employment
                                      Opportunity Statistical Report of Discrimination Complaints” (EEOC
                                      Form 462 report), and the “Notification and Federal Employee
                                      Anti-Discrimination and Retaliation (No FEAR) Act” report. CR procured
                                      two web-based applications to prepare these reports. CR began
                                      implementation of the Civil Rights Enterprise System (CRES) in
                                      February 2005. 22 CRES allowed USDA agencies and CR to use one
                                      automated system for processing and tracking EEO complaints at both the
                                      informal and formal stages.

                                      The EEO complaint process begins at the informal stage when an aggrieved
                                      person contacts a USDA agency’s EEO counselor to report an act of
                                      discrimination. The EEO counselor notifies the aggrieved person of his or her
                                      rights and responsibilities and has 30 days (or up to 90 days if an extension is
22
     According to CR officials, CRES was fully implemented the end of June 2005.

USDAOIG-A/60601-04-Hy                                                                                         Page 1
                                     granted or ADR 23 is used) to resolve the issues discussed. If resolution is
                                     achieved within the established timeframes, a settlement agreement is
                                     prepared and signed. If there is no resolution, the EEO counselor must notify
                                     the aggrieved person of her or his right to file a formal complaint with CR.

                                     If a formal complaint is filed, CR is to complete processing of the complaint
                                     within 270 days. CR’s Employment Complaints Division (ECD) reviews
                                     each new complaint and determines whether it should be accepted for further
                                     review or dismissed in accordance with Departmental directives based on
                                     EEOC regulations. 24 If the complaint is dismissed, a final agency decision
                                     (FAD) stating the reasons for the dismissal is issued to the complainant and
                                     the agency. If the complaint is accepted, an investigation must be initiated by
                                     the involved agency. The Department has 180 days from the date the formal
                                     complaint is filed to issue a Report of Investigation (ROI). Upon receipt of
                                     the ROI, the complainant has 30 days to request a hearing by an EEOC
                                     administrative judge or a FAD by CR. If a FAD is requested, CR’s
                                     Complaints Adjudication Division (CAD) must issue a FAD based on the
                                     facts identified in the ROI within 60 days of the request. If a hearing is
                                     requested, CAD must provide a written final decision to the complainant
                                     within 40 days of the receipt of the administrative judge’s decision. This
                                     40-day period is not included in the 270-day timeframe. A flowchart of this
                                     formal process is shown in Exhibit B.

                                     In March 2000, we issued our first report 25 on CR’s processing of EEO
                                     complaints. The report highlighted weaknesses in CR’s operating
                                     environment for tracking its complaints inventory, reporting on its
                                     performance, processing complaints, and working with other USDA
                                     agencies. In September 2005, we issued a report 26 that followed up on our
                                     prior recommendations for CR program and EEO complaints. We concluded
                                     that CR had strengthened its controls by implementing corrective actions for
                                     22 of our 43 recommendations. However, we found that CR did not institute
                                     management controls to monitor corrective actions or report actions taken to
                                     the Office of the Chief Financial Officer (OCFO).

                                     In April 2006, two U.S. Senators requested that Office of Inspector General
                                     (OIG) look into several issues involving civil rights at USDA. Based on their
                                     request, as further refined in discussions with staff from the Committee on
                                     Agriculture, Nutrition, and Forestry, we agreed to evaluate USDA’s progress
                                     with regard to addressing EEO complaints and employee accountability for
                                     acts of discrimination. The audit was designed to provide statistical data
                                     regarding employee complaints filed in fiscal years (FY) 2004, 2005, and the
                                     first three quarters of FY 2006, and USDA’s response to a recommendation
                                     made in EEOC’s Onsite Report, dated February 26, 2003, regarding proper

23
     ADR is any of a number of conflict resolution techniques used to assist the complainant and agency in resolving EEO complaints.
24
     ECD uses an accept/dismiss checklist in Appendix A of Departmental Manual (DM) 4300-1, EEO Complaint Processing Procedures.
25
     Audit Report No. 60801-03-Hq, Management of EEO complaints—Phase VII, March 2000.
26
     Audit Report No. 60016-01-Hy, Follow-up on Prior Recommendations for Civil Rights Program and Employee Complaints, September 2005.

USDAOIG-A/60601-04-Hy                                                                                                                 Page 2
                                         separation between the Office of the General Counsel (OGC) and CR
                                         involving legal sufficiency reviews of reports of investigation and final
                                         agency decisions.

Objectives                               Our overall objective was to evaluate USDA’s progress with regard to
                                         addressing EEO complaints and employee accountability for acts of
                                         discrimination. Specifically, we identified and evaluated the adequacy of
                                         USDA’s: (1) controls to track and process EEO complaints, and (2) processes
                                         to hold employees accountable for discriminatory actions towards other
                                         employees or in administering USDA programs.

                                         In June and December 2006, OIG received Hotline Complaints concerning
                                         CR. We incorporated the issues raised into our objectives by reviewing CR’s
                                         contract with a software application supplier and by examining CR’s role in
                                         the informal and formal complaint resolution processes.

                                         To accomplish our objectives, we interviewed CR staff, managers, USDA
                                         agency CR staff, and Departmental officials to obtain information on CR’s
                                         employee accountability process and EEO complaint process tracking
                                         controls. We also reviewed EEO complaint data from CRES for our universe
                                         of 1,481 formal cases with an initial contact date 27 within the period
                                         beginning in FY 2004 through the third quarter of FY 2006.




27
     Initial contact date is the date a complainant first contacts an EEO counselor.

USDAOIG-A/60601-04-Hy                                                                                       Page 3
Findings and Recommendations
Section 1.             Controls for Timely Processing Complaints

Finding 1                             EEO Complaints were Not Timely Processed
..
                                      CR has made improvements in the amount of time needed to process
                                      complaints but additional efforts are needed. In February 1997, the
                                      Secretary’s Civil Rights Action Team identified USDA’s inability to process
                                      EEO complaints timely and effectively, noting that it took an average of
                                      nearly 3 years to complete a case. Our current work disclosed that CR’s
                                      processing time to complete a case averaged just less than 1.5 years.
                                      However, this average still exceeds the 270-day processing timeframe
                                      established by EEOC.

                                      The CR Director attributed this condition to several factors, including
                                      unrealistic timeframes established by EEOC, a substantial inventory of
                                      backlogged complaint cases, an influx of new cases, staffing and resources,
                                      as well as individual agencies not meeting their responsibilities. The CR
                                      Director stated that through the ASCR Strategic Plan, 28 CR’s weaknesses in
                                      the timely processing of complaints will be corrected within the next five
                                      years. However, CR did not have a detailed formal plan with action items and
                                      reasonable and measurable milestones to address its complaint processing
                                      delays.

                                      The processing of EEO complaints is a shared USDA responsibility.
                                      Agencies are responsible for processing and entering data into CRES during
                                      the informal stage, and for investigations and hearings during the formal
                                      stage. CR is responsible for processing and entering data into CRES for
                                      acceptance or dismissal of complaints and for final agency decisions during
                                      the formal stage. CR has the overall responsibility for ensuring that USDA is
                                      accurately reporting on its EEO activities and timely processing its EEO
                                      complaints.

                                      We determined that CR did not have an adequate monitoring framework to
                                      track the processing of complaints and to intervene when timeframes were
                                      not being met. Reliable standard management reports from CRES are not
                                      available to CR managers for monitoring the processing of complaints. In
                                      addition, CR managers are not required to report to the CR Director on cases
                                      that are exceeding established timeframes.

                                      If CR accepts a formal EEO complaint, the agency is to process the
                                      complaint and issue a final agency decision within 270 days. This timeframe
28
     The ASCR Strategic Plan is a document used by the ASCR to align its organization and budget structure with organizational priorities, missions,
     measurable objectives, and strategies to achieve these objectives.

USDAOIG-A/60601-04-Hy                                                                                                                    Page 4
                                       includes 180 days from the time the complaint is filed to the completion and
                                       issuance of the ROI, 30 days for the complainant to select whether the
                                       complaint is to be decided by an EEOC administrative judge or CR, and
                                       60 days for CR to issue a FAD.

                                       We analyzed the amount of time it took CR to process and resolve complaints
                                       based on data in the CRES system as of August 22, 2006. Our universe of
                                       1,481 EEO complaints included formal cases with initial contact dates in
                                       FY 2004, FY 2005, and the first three quarters of FY 2006. We excluded
                                       12 complaints from our universe because these cases were class action
                                       complaints, which are not within CR’s control. These cases are being handled
                                       as part of several class actions by EEOC.

                                       Open Cases

                                       Open cases are cases that have not been settled by the agency, adjudicated by
                                       CR or an administrative judge, or withdrawn by the complainant. As of
                                       August 22, 2006, we determined that 919 of the 1,469 cases in our universe
                                       were open. Table 1 below shows whether the open cases involved a request
                                       for an EEOC hearing.

                                       Table 1.
                                           Status                                      Number of Open Cases
                                           No Hearing Requested                                582
                                           Hearing Requested                                   337
                                           Total                                               919

                                       For complaints without a request for an EEOC hearing, 304 of the 582 cases
                                       exceeded the 270-day timeframe. The processing time ranged from 293 to
                                       1,019 days, with an average of 534 days and a median of 503 days. We also
                                       observed that benchmarks for actions to be taken within the 270-day
                                       timeframe were not met. According to data in CRES:

                                       •     CR did not ensure the ROI was completed within 180 days from the date
                                             the formal complaint was filed for 213 of the 304 cases;

                                              − CR did not annotate acceptance in CRES for 29 of the 213 cases;

                                              − CR did not annotate acceptance in CRES for 21 of the 213 cases until
                                                after the 180-day timeframe for completing the ROI; and

                                       •     CR did not issue a FAD within 90 29 days of the date the ROI was issued
                                             for 209 of the 304 cases.


29
     The 90-day period includes the 30 days allowed for the complainant to make an election for a FAD or an administrative judge decision and 60 days for
     the issuance of the FAD.

USDAOIG-A/60601-04-Hy                                                                                                                         Page 5
                                       For the 337 open cases with an EEOC hearing request, we only assessed the
                                       180-day timeframe for accepting the case and completing the ROI, which is
                                       CR’s responsibility. The 270-day timeframe did not apply to the
                                       337 complaints wherein the complainant elected to have an EEOC
                                       administrative judge render the decision. In these cases, CR had 40 days to
                                       provide the complainant with the FAD after receiving the administrative
                                       judge’s decision.

                                       •     CR did not ensure that the ROI was completed within 180 days from the
                                             date the formal complaint was filed for 178 of the 337 cases. In addition,
                                             we found that for the 178 cases:

                                              - CR did not annotate acceptance in CRES of 13 cases until after the
                                                180-day timeframe for completing the ROI had passed;

                                              - CR did not annotate acceptance or the completion of an investigation
                                                for 2 cases; and

                                              - CR did not complete the FAD for 11 cases within the 40 days
                                                following the decision by the EEOC administrative judge. The CR
                                                Director attributed these untimely FADs to a lack of coordination
                                                with the agency representatives to ensure that they submitted the
                                                administrative judge’s decisions in a timely manner.

                                       Closed Cases

                                       We determined that 550 of the 1,469 cases have been closed. Table 2 below
                                       shows the types of events that closed the cases and denotes whether the cases
                                       involved a request for an EEOC Hearing.

                                       Table 2.
                                           Closure Event                   No Hearing Requested               Hearing Requested      Totals
                                           Withdrawal 30                             47                               33               80
                                           Settlement agreement                     105                               92               197
                                           Administrative Judge
                                                                                        N/A                               74           74
                                           Decision
                                           FAD based on
                                                                                         77                               49           126
                                           procedural dismissal
                                           FAD based on merits of
                                                                                         67                                6           73
                                           the complaint
                                           Total                                        296                              254           550

                                       In our analysis of the amount of time it took to completely resolve
                                       complaints, we excluded the 254 complaints where a hearing was requested
                                       with an EEOC administrative judge. The timeframe for rendering a decision
                                       for these complaints is not within CR’s control. However, we assessed the

30
     A complainant may withdraw a complaint at any time during the EEO process including after submitting a request for a hearing.

USDAOIG-A/60601-04-Hy                                                                                                                 Page 6
                   180-day timeframe for accepting or dismissing each case and completing the
                   ROI, which is within CR’s control.

                   CR’s average timeframe for complete resolution for the 296 cases without a
                   hearing request was 243 days. However, this average is not representative of
                   CR’s processing times because it includes cases settled by USDA agencies,
                   closures by withdrawal, and procedural dismissals by CR. To obtain a better
                   understanding of CR’s processing times, we focused on the 67 cases wherein
                   CR issued a FAD based on the merits of the complaint. These types of cases
                   require an in-depth analysis by CR. We determined that the average time for
                   processing these 67 cases and issuing a FAD was 504 days and the median
                   was 502 days, well over the 270-day established timeframe. One case took
                   867 days to complete. In addition, for these 67 cases, CR needed an average
                   of 306 days to issue the FAD following the completion of the ROI, more than
                   3 times the length of the 90-day established timeframe.

                   We determined that 355 of the 550 closed cases were investigated. We
                   assessed the 180-day timeframe for accepting each case and completing the
                   ROI, which is CR’s responsibility. We determined that CR did not ensure
                   that the ROI was completed within 180 days for 135 of the 355 cases. CR
                   also did not annotate acceptance of 3 of the 135 cases until after the
                   timeframe for completing the ROI had elapsed. CR’s time for accepting or
                   dismissing the cases and completing the ROI ranged from 69 to 520 days,
                   with an average of 196 days.

                   CR officials acknowledged that they are not meeting established timeframes
                   for processing EEO complaints. The CR Director stated that there are several
                   reasons why timeframes are not being met and they are trying to meet the
                   timeframes based on their strategic plan. However, CR did not have a formal
                   plan to detail how it will meet the timeframes. Also, CR did not have
                   adequate controls to track the processing of complaints and to intervene when
                   timeframes were not being met.

Recommendation 1
                   CR should develop a detailed formal plan to process EEO complaints timely
                   and effectively. Specifically, this plan should identify the weaknesses,
                   provide action items for addressing these weaknesses, and establish
                   reasonable and measurable timelines for completing the actions.

                   Agency Response.

                   CR agreed to produce a detailed plan for the timely and efficient processing
                   of EEO complaints, including identification of weaknesses and action items.
                   The detailed plan will be completed by June 29, 2007. CR acknowledged that
                   many EEO cases are processed beyond the regulatory timeframes.



USDAOIG-A/60601-04-Hy                                                                   Page 7
                   CR’s response presented various statistical data to demonstrate the agency’s
                   commitment to improve the timely processing of EEO complaints. For
                   example, for FADs issued on the merits, CR’s response stated that USDA's
                   average processing time of 582.1 days in FY 2004 and 422.3 days in
                   FY 2005 was better than the government-wide average of 597.9 days in
                   FY 2004 and 479.2 days in FY 2005.

                   CR also identified three areas the agency needs to address in order to improve
                   the timely processing of EEO complaints: (1) lack of adequate staffing to
                   address current workload; (2) too many cases reach the adjudication process
                   that could have been addressed earlier; and (3) CAD did not receive timely
                   information needed to close complaints.

                   OIG Position.

                   We accept CR’s management decision; however, we question the data used
                   by CR to demonstrate the agency’s commitment to improve the timely
                   processing of complaints. According to the EEOC Annual Report on the
                   Federal Work Force FY 2005, where CR obtained the government-wide
                   averages for FADs issued on the merits, USDA’s average processing time for
                   a merit-based FAD was 1,093.9 days in FY 2004 and 736.2 days in FY 2005.

Recommendation 2
                   Develop and implement controls to monitor the processing of complaints and
                   to intervene when timeframes were not being met. These controls should
                   include reporting mechanisms to the CR Director to provide the reasons why
                   specific cases are exceeding established timeframes.

                   Agency Response.

                   CR agreed to develop and implement controls to monitor and address cases
                   that significantly exceed regulatory timeframes through the following
                   actions:

                   •    Develop reports showing the cases pending acceptance or dismissal
                        including the days lapsed, and the cases pending adjudication including
                        the days lapsed to ensure ECD Chief and CAD Chief issue documents to
                        the complainants timely or intervene when timeframes are not being met.
                        This task will be completed by May 31, 2007.

                   •    The ECD Chief will institutionalize a practice of intervening if a draft
                        acceptance letter or dismissal decision is not presented for review within
                        the 45 days following the formal complaint filing date and taking
                        appropriate actions to ensure that an acceptance letter is issued within
                        60 days or that a dismissal decision is issued within 120 days following
                        the filing date. This task will be completed by May 31, 2007.

USDAOIG-A/60601-04-Hy                                                                     Page 8
                   •    The CAD Chief will develop goals for addressing the cases pending a
                        FAD on the merits. The goals will address the cases already beyond the
                        regulatory time period, those that are expected to exceed the regulatory
                        timeframe based on the pending workload, and new cases entering the
                        adjudication process. The plan will show how the inventory will be
                        addressed going forward so that a 90 percent level of timely merit FADS
                        can be achieved. This task will be completed by September 28, 2007.

                   •    Reassess performance standards for specialists in ECD and CAD to
                        ensure quality and timeliness in the completion of assigned cases. This
                        task will be completed by October 31, 2007.

                   •    CR will require that the Statements of Work used by the agencies to
                        procure the services of contract investigators contain standard provisions
                        regarding timeliness and quality. This task will be completed by
                        December 31, 2007.

                   •    CR will request that the EEOC provide technical assistance with
                        investigations of EEO complaints, including training on conducting legal
                        sufficiency reviews and a process review to identify factors impacting
                        timeliness and suggestions for streamlining investigations. This task will
                        be completed by June 30, 2008.

                   OIG Position.

                   We concur with CR’s proposed actions for implementing Recommendation
                   2. However, in order to reach management decision, CR needs to establish
                   the timeframe by which cases are considered to significantly exceed
                   regulatory timeframes. In addition, CR needs to provide a timeline with
                   milestone dates for significant steps in its plan for requesting and obtaining
                   feedback from EEOC regarding training on legal sufficiency reviews and a
                   process review to identify factors impacting timeliness and suggestions for
                   streamlining investigations.




USDAOIG-A/60601-04-Hy                                                                     Page 9
Section 2.              Controls Over Complaints Tracking System

                                       We determined that CR had not sufficiently strengthened its controls over the
                                       entry and validation of complaint data. Specifically, CR did not institute the
                                       necessary edit checks (business rules 31 ) to ensure the completeness of
                                       complaint data entered into the information system (i.e., CRES) that the
                                       agency began implementing in February 2005. In addition, data recorded in
                                       CRES did not always reconcile with documentation in the physical case files
                                       because no process was implemented to validate the accuracy of the data. As
                                       a result, the information system did not provide a fully reliable source of data
                                       on USDA EEO complaints.

                                       In February 2005, CR began implementing CRES, a web-based application
                                       that allowed USDA agencies and CR to enter data and use one automated
                                       system for processing and tracking EEO complaints at both the informal and
                                       formal stages. According to CR officials, prior to the implementation of
                                       CRES, agencies did not have an enterprise system to track informal EEO
                                       complaints. CR uses CRES to complete and file required reports such as the
                                       annual EEOC Form 462 Report, which provides information on the status of
                                       informal and formal EEO complaints.


Finding 2                              Insufficient Business Rules for CRES

                                       CR and the applicable USDA agencies enter complaint data into CRES. CR
                                       then uses data from CRES to complete and file required reports. However,
                                       CR did not include the necessary business rules in CRES to ensure that all
                                       required data were entered by USDA agencies when the system was being
                                       implemented in February 2005. 32 As a result, CRES was not always a reliable
                                       source of data for reports filed to demonstrate that USDA was complying
                                       with the established EEO process.

                                       The data gathered from CRES for the EEOC Form 462 Report submitted for
                                       FY 2005 was not fully accurate. The CR Director explained that this was
                                       disclosed to EEOC and the data was the best data available to CR at that
                                       time. 33 She stated that the system was new and a margin of error will
                                       therefore exist. The report provides information on the status of informal and
                                       formal EEO complaints. The following highlight examples of complaint data,
                                       at the informal and formal stages, which were not correctly presented in
                                       CRES for the 1,481 cases in our universe.


31
     Business rules are protocols installed in the system to ensure data are entered for required stages in the EEO process.
32
     According to the CR Director, CR intended to phase in business rules over time in order to make the initial use of the system easier for the agencies.
33
     We confirmed that in Appendix A of the FY 2005 EEOC Form 462 Report CR disclosed that CRES was a new system and some corrections may have
     to be made as CR continues to enhance quality control.

USDAOIG-A/60601-04-Hy                                                                                                                           Page 10
                                       •     Informal ADR data were not entered for 625 cases;

                                       •     Informal closure data were omitted in 6 cases; and

                                       •     Formal acceptance dates for 29 cases were omitted, even though data in
                                             CRES indicated that investigations had been initiated.

                                       According to EEO complaint processing procedures, 34 agencies are required
                                       to offer ADR to aggrieved persons during the informal stage of complaint
                                       processing. However, agencies are not required to offer informal ADR if the
                                       complaint involves violence or criminal activity.

                                       We selected a sample of 64 cases in order to reconcile information recorded
                                       in CRES with documentation recorded in the case file. Because CR was not
                                       able to locate or recreate 1 case file, we only reviewed 63. 35 We analyzed our
                                       sample of 63 cases to evaluate why informal ADR data had not been entered
                                       in CRES. Because CRES was used to track complaints, documentation in the
                                       case files should support the data USDA agencies record in CRES. Informal
                                       ADR data were not entered for 28 of the 63 cases in our sample. For 19 of the
                                       28 cases, the documentation in the case files did not clearly show whether
                                       ADR was offered. For 9 of the 28 cases, the documentation clearly stated
                                       whether or not ADR was offered; however, the responsible USDA agencies
                                       did not make accurate entries in CRES.

                                       Omitted entries for data elements raise questions about the sufficiency of the
                                       data recorded in CRES and whether data from this system can be used to
                                       demonstrate that USDA was in compliance with these aspects of the EEO
                                       process. Business rules could be set in the system to require an entry for one
                                       stage before a user could enter data in CRES associated with subsequent
                                       stages of the EEO process. As of October 31, 2006, CR had not identified and
                                       incorporated all of the business rules necessary to ensure the integrity of the
                                       EEO complaint data in CRES. In addition, CR did not have a plan for
                                       accomplishing these tasks.

                                       In order to ease the transition to CRES for USDA agencies, CR planned to
                                       phase in the necessary business rules. However, in responding to our
                                       inquiries, CR could not provide the plan for incorporating the rules. CR
                                       provided us with a list of business rules for CRES formal events. However,
                                       we determined that the list did not constitute a formal action plan for
                                       identifying, developing, testing, and implementing the listed rules. CR also
                                       had not begun work on establishing business rules for the informal process or
                                       developing a plan to implement them during the course of our field work.
                                       During the exit conference, CR officials stated that they have begun
34
     DM 4300-1, EEO Complaint Processing Procedures, Chapter IV, Informal EEO Complaint Process, dated July 20, 2001.
35
     In March 2007, CR provided us with the one missing case file that was not recreated. Based on our review, we found that this case file did not contain
     the initial formal complaint, initial acceptance letter of the complaint, and the initial ROI. However, for the documentation we did review, the data
     entered in CRES was accurate. The ADR data for this case was entered in CRES and supported by documentation in the case file.

USDAOIG-A/60601-04-Hy                                                                                                                           Page 11
                                       implementing additional business rules and a plan to implement the other
                                       necessary business rules was currently in process.

Recommendation 3
                                       Identify all the business rules necessary for entering EEO complaint data into
                                       CRES at the informal and formal stages of complaint processing. Implement
                                       a plan with action items and timeframes to develop, test, and apply the
                                       needed business rules.

                                       Agency Response.

                                       CR agreed to provide a formal plan for developing, testing and implementing
                                       business rules in CRES no later than June 29, 2007.

                                       OIG Position.

                                       We accept CR’s management decision.


Finding 3                              CRES Data Not Supported by Case File Documentation

                                       For 11 of the 63 EEO complaints selected for review (over 17 percent of the
                                       sampled complaints), the data recorded in CRES were not supported by the
                                       documentation in the physical case file. For example, for one complaint, the
                                       complainant’s race recorded in CRES was White, whereas the supporting
                                       documentation described the complainant as African-American. The errors in
                                       the information system occurred because CR had not implemented a process
                                       to validate the accuracy of data entered into CRES. As a result, CRES was
                                       not always a reliable source of information about EEO complaints at USDA.

                                       According to CR’s performance standards, managers are responsible for the
                                       integrity of data in CRES and should perform periodic audits to ensure
                                       accuracy of entries. However, we found that this standard was not
                                       consistently applied because CR did not have an established data validation
                                       process. According to one CR manager, physical case files are compared to
                                       CRES data once per month to ensure accuracy. Another CR manager stated
                                       that the assigned Equal Opportunity Assistant verifies the accuracy of data
                                       entered in CRES. However, neither manager could provide documentation to
                                       support that these data integrity checks were performed.

                                       In addition to the previously noted example of the error in recording the
                                       complainant’s race in CRES, we found the following dates were erroneously
                                       recorded: 36


36
     The total number of errors will not equal 11 because 2 cases had more than one discrepancy.

USDAOIG-A/60601-04-Hy                                                                                        Page 12
                                        •     Initial contact dates for four cases;

                                        •     Formal filing dates for two cases;

                                        •     Acceptance dates for two cases;

                                        •     ROI issuance dates for two cases; and

                                        •     Hearing request dates for two cases. 37

                                        When dates are entered in error, CRES cannot be reliably used to analyze
                                        whether complaints are processed within established timeframes. Because CR
                                        has the overall responsibility 38 for ensuring that USDA is accurately
                                        reporting on its EEO activities and timely processing its EEO complaints, CR
                                        needs to implement a formal verification process to ensure data integrity.

Recommendation 4
                                        Develop and implement a formal process to validate the accuracy of
                                        information entered in CRES. The process should include an independent,
                                        second-party verification of data accuracy by CR at the agency level on a
                                        sample basis.

                                        Agency Response.

                                        CR agreed to develop and implement a formal process to validate the
                                        accuracy of information entered into CRES by taking the following steps:

                                        •     Ensure that a comprehensive data dictionary is available to all users on
                                              CRES’ intranet website. A data dictionary defines all of the data fields in
                                              the system so that users are inputting data in a consistent fashion. This
                                              task will be completed no later than June 29, 2007.

                                        •     Implement an automated quality control tool that will highlight errors in
                                              logic and inconsistent data entries. The automated quality control tool
                                              will be implemented no later than October 31, 2007.

                                        •     Assign audit responsibilities to staff not involved in data entry. The
                                              assigned individual(s) will review data entries for a sample of cases at
                                              least twice a year and make a record of the results of the audit. The CR
                                              Director will determine what further action is required depending on the
                                              results of the audit. The audit procedures will be in place no later than
                                              July 31, 2007. The first audit will be completed no later than
                                              November 30, 2007.
37
     The initial contact dates, ROI issuance dates, and hearing request dates are entered by the agencies; and the formal filing dates and acceptance dates are
     entered by CR.
38
     Secretary of Agriculture Memorandum 1030-57, dated March 7, 2003.

USDAOIG-A/60601-04-Hy                                                                                                                              Page 13
                   OIG Position.

                   We accept CR’s management decision.




USDAOIG-A/60601-04-Hy                                    Page 14
Section 3.              Controls Over Physical Case Files

                                       In March 2000, we reported that CR’s file room was not properly managed
                                       and case files were disorderly and improperly stored, noting that 18 case files
                                       were missing and case files were stored in employees’ office spaces and in a
                                       borrowed shopping cart. Our review disclosed that CR has made some
                                       progress towards organizing and properly storing case files. However, CR
                                       had not established adequate controls over its file room operations to ensure
                                       that physical case files can be located timely and that the files contain all of
                                       the documentation required for processing the complaints.

                                       The CR Director explained that CR is working towards a paperless
                                       environment and agreed that controls would be needed in the interim to
                                       strengthen this area of CR’s operations.

Finding 4                              CR’s File Room Operations were Not Efficient

                                       CR could not readily account for and provide 15 of the 64 case files selected
                                       for review. This occurred because CR lacked procedures to control and
                                       monitor the physical location of files. As a result, CR was unable to provide
                                       requested case files in a timely manner. CR needed more than a month to
                                       locate 13 of the 15 requested case files and could not locate 2 case files;
                                       however CR was able to recreate 1 of the 2 missing case files. 39

                                       A Departmental regulation 40 requires that records shall be maintained so that
                                       they are easily retrievable. Offices shall strive to standardize filing
                                       procedures and filing techniques for official records. Document filing
                                       systems are to be designed, in part, to enhance the current use of files.

                                       We selected a sample of 64 cases to reconcile information recorded in CRES
                                       with documentation recorded in the case files. Because of the aforementioned
                                       missing case file, we only reviewed 63 cases.

                                       A data field in CRES was designed to track case file location. However, we
                                       found that CRES was not reliable for tracking the case file location because
                                       the data field was not regularly updated. We observed that case files were
                                       kept in several rooms on different floors throughout the building where CR is
                                       located. We also observed that these file rooms lacked the space needed to
                                       hold all of the physical case files, which caused CR’s file room staff to store
                                       case files on desks, in boxes, and in no particular order. Two of the file rooms
                                       served as storage closets for boxed case files rather than as file rooms. In
                                       addition, we learned that even though the building managers informed CR

39
     In March 2007, CR provided the second missing case file (originally requested in September 2006).
40
     DR 3080-001, Records Management, dated April 30, 2004.

USDAOIG-A/60601-04-Hy                                                                                          Page 15
                                       management that placing case files on the top shelves was a fire hazard, this
                                       practice has continued.

                                       A Departmental regulation 41 requires that all USDA records shall be listed
                                       and described in an approved records schedule and shall be disposed of as
                                       authorized by that schedule. According to the General Records Schedule,
                                       Item 25, EEO Complaints should be destroyed four years from the official
                                       closure date of the case.

                                       According to CRES, CR was storing over 5,700 closed case files that have
                                       exceeded the four year retention requirement as of October 2006. 42 CR’s
                                       actions to eliminate these closed cases included preparing a list of cases that
                                       are past their retention period, circulating this list within CR to ensure that
                                       these cases do not need to be retained, and destroying those cases that
                                       received approval. CR officials stated that a case that has been closed beyond
                                       four years is not necessarily ready for destruction. For example, a case
                                       involved in a legal trial must be retained until the litigation is concluded.
                                       However, CR did not know how many of these case files were located at its
                                       office in Washington, DC, how many are stored offsite, or how many have
                                       already been destroyed. CR has not performed a physical inventory to
                                       identify how many of these cases are in their possession or how many
                                       additional cases, not identified by CRES, require destruction. In addition, CR
                                       did not have a formal plan with action items and timeframes for the
                                       destruction of these closed cases.

                                       In order to standardize file room operations and make them more efficient,
                                       CR needs to implement procedures to control and monitor case file location
                                       and disposition.

Recommendation 5
                                       Develop and implement procedures to control and monitor case file physical
                                       location and disposition.

                                       Agency Response.

                                       CR agreed to develop comprehensive records management procedures for
                                       EEO complaints case files no later than September 30, 2008.

                                       OIG Position.

                                       We concur with CR’s proposed action for Recommendation 5; however, to
                                       reach management decision, CR needs to provide a timeline with milestone

41
     DR 3080-001, Records Management, dated April 30, 2004.
42
     The General Records Schedule requires that EEO cases be destroyed four years from the date they are closed. However, at the exit conference, CR
     officials stated that a closed case in CRES is not necessarily ready for destruction. For example, a case currently in court litigation should not be
     destroyed. CR officials stated that they plan to address how cases are defined in CRES (i.e., closed) as they respond to the findings and
     recommendations in our report

USDAOIG-A/60601-04-Hy                                                                                                                          Page 16
                   dates for significant steps in its plan to implement procedures to control and
                   monitor case file location and disposition.

Recommendation 6
                   Develop and implement a formal plan with action items and timeframes for
                   identifying and destroying the paper files of those cases for which all actions
                   have been completed and the four year retention period has been exceeded.

                   Agency Response.

                   CR agreed to implement a formal plan for identifying and properly disposing
                   of paper case files, when appropriate. Because of the volume of case files that
                   must be reviewed for possible destruction and the amount of work that must
                   be done to prepare a file for destruction, CR believes that an external
                   contractor is needed to complete the process in an efficient manner. In
                   addition, an external contractor will have the expertise needed to recommend
                   procedures for carrying out the destruction of records in accordance with
                   industry best practices. These actions will be completed no later than
                   September 30, 2008.

                   OIG Position.

                   We concur with CR’s proposed action for Recommendation 6: however, to
                   reach management decision, CR needs to provide a timeline with milestone
                   dates for significant steps in its implementation plan for identifying and
                   properly disposing of paper case files.

Recommendation 7
                   Perform and document a physical inventory of complaints and case files to
                   determine whether there are any additional cases, not identified by CRES that
                   should be destroyed.

                   Agency Response.

                   CR agreed to include a physical inventory as part of the Statement of Work
                   for the contractor retained to carry out the activities identified in
                   Recommendation 6. This task will be completed no later than
                   September 30, 2008.

                   OIG Position.

                   We concur with CR’s proposed action for Recommendation 7; however, to
                   reach management decision, CR needs to provide a timeline with milestone
                   dates for significant steps in its implementation plan for performing a
                   physical inventory of complaints and case files.



USDAOIG-A/60601-04-Hy                                                                     Page 17
Finding 5                              Physical Case Files Did Not Contain Required Documentation

                                       For 21 of the 63 cases reviewed, CR did not ensure that the physical case
                                       files contained required documentation e.g., counselor’s reports, acceptance
                                       letters, ROIs, FADs or administrative judges’ decisions, and settlement
                                       agreements. This occurred because CR did not have processes and procedures
                                       to control the flow of documents associated with EEO complaints. As a
                                       result, CR did not always have documentary assurance that its actions were
                                       supported.

                                       A Departmental regulation 43 requires that records shall be maintained so that
                                       they are easily retrievable. Offices shall strive to standardize file arrangement
                                       systems, filing procedures, and filing techniques for official records.

                                       According to CR officials, the agency did not have policies and procedures to
                                       specify responsibilities for receiving, transferring, filing, and safeguarding
                                       documents associated with EEO complaints. However, the Director of CR
                                       explained that procedures are currently being developed to address these
                                       responsibilities and improve file room operations.

                                       By reconciling the information in CRES with the documentation in the
                                       63 case files reviewed, we found that 21 case files were missing the
                                       following documentation needed to support information in CRES: 44

                                       •     4 did not include a counselor’s report;

                                       •     11 did not include the ROI;

                                       •     4 did not contain the settlement agreement;

                                       •     2 did not have a FAD or administrative judge’s decision; and

                                       •     8 were missing other documents such as the acceptance letter, dismissal
                                             letter, formal complaint, or withdrawal letter.

                                       In addition, we found complaint documentation misfiled in 2 of the 63 case
                                       files. These case files included information on another person’s complaint.

Recommendation 8
                                       Develop and implement processes and procedures to control the flow of
                                       documents associated with processing EEO complaints. This should include
                                       procedures documenting which CR divisions or units are responsible for

43
     DR 3080-001, Records Management, dated April 30, 2004.
44
     The total number of errors will not equal 21 because 5 cases had more than one discrepancy.

USDAOIG-A/60601-04-Hy                                                                                           Page 18
                   receiving, transferring, filing, and safeguarding documents in the file folder.
                   These procedures should also provide instructions on how to record and
                   monitor the transfer of documents within the agency.
                   Agency Response.

                   CR is in the process of institutionalizing its records management procedures.
                   The procedures will address the way documents that make up a case file are
                   handled, transferred, stored and maintained. In addition, procedures will be
                   implemented to address how documents are transferred between the agencies
                   and the Office of Civil Rights. These tasks will be completed no later than
                   September 30, 2008.

                   OIG Position.

                   We concur with CR’s proposed action for Recommendation 8; however, to
                   reach management decision, CR needs to provide a timeline with milestone
                   dates for significant steps in its implementation plan for controlling the flow
                   of documents associated with processing EEO complaints.




USDAOIG-A/60601-04-Hy                                                                     Page 19
Scope and Methodology
                   To accomplish our objectives, we performed fieldwork at CR’s offices in
                   Washington, DC. Our work included an analysis of EEO complaint data in
                   CR’s information system, CRES, for formal cases with initial contact dates
                   from the start of FY 2004 through the end of the third quarter of
                   FY 2006. We selected this period in order to assess the actions taken by CR’s
                   current management team. This universe of complaints totaled 1,481 cases.
                   By using the software application Audit Command Language (ACL), we
                   selected a sample of 64 complaints for a detailed analysis to determine
                   whether the physical case files had supporting documentation. ACL analysis
                   of the number of complaints in the universe assisted in our decisions on the
                   number of complaints to review and the specific complaints to be selected for
                   review.

                   We interviewed:

                   •    CR staff, managers, and other USDA agencies civil rights staff in order to
                        obtain information on CR’s employee accountability process, EEO
                        complaint processing controls, and its tracking and processing systems,

                   •    An official at the Office of Human Capital Management to discuss
                        actions taken on USDA’s policy on employee accountability, and

                   •    An official at OGC to followup on the implementation of a
                        recommendation discussed in the EEOC Onsite Report dated
                        February 26, 2003. EEOC recommended that USDA ensure proper
                        separation of responsibilities between the OGC and CR in the conduct of
                        legal sufficiency reviews of ROIs and FADs.

                   We also:

                   •    Reviewed the EEO complaints file rooms to determine whether case files
                        are organized and easily retrievable,

                   •    Compared the documentation in the case files with the data entered in
                        CRES to determine whether data had been entered correctly,

                   •    Analyzed CRES data to determine if complaints were processed timely,

                   •    Reviewed CRES to determine whether the system had sufficient edit
                        checks to ensure data are accurate and complete, and



USDAOIG-A/60601-04-Hy                                                                     Page 20
                   •    Reviewed a selected software application to determine if the application
                        accurately reported employment data for the Federal agency Annual EEO
                        Program status report (MD-715 report).

                   Fieldwork was conducted from July 2006 through March 2007. Our audit
                   was conducted in accordance with Generally Accepted Government Auditing
                   Standards.




USDAOIG-A/60601-04-Hy                                                                   Page 21
Exhibit A – Complaints by Bases of Discrimination for our USDA Universe
                                                                                                                                Exhibit A – Page 1 of 3

The following tables illustrate by agency 45 the bases of discrimination for our universe of 1,481 cases.
Some cases have more than one basis of discrimination; therefore the total will not equal the number of
complaints for each FY.




45
     CR provided us with base data for our universe by its initial contact date; therefore our agency totals include formal complaints by its initial contact
     date.

USDAOIG-A/60601-04-Hy                                                                                                                            Page 22
                        Exhibit A – Page 2 of 3




USDAOIG-A/60601-04-Hy                 Page 23
                        Exhibit A – Page 3 of 3




USDAOIG-A/60601-04-Hy                 Page 24
Exhibit B – The Office of Civil Rights’ Process for a Formal EEO Complaint
                                                                                                                       Exhibit B – Page 1 of 1


                                    After receiving the Notice of Right to File a formal
                                    complaint from the appropriate agency, the
                                    aggrieved person has 15 days to submit a formal
                                    complaint to CR’s EEO complaints Division
                                    (ECD).



                                    ECD reviews the complaint and counselor’s report;
                                    and determines whether the complaint is accepted
                                    or dismissed. The agency is required to submit the
                                    counselor’s report to ECD within 15 days of
                                    notification from ECD that a formal complaint has
                                    been filed.




      Dismissed – The dismissal final agency decision                 Accepted – If the complaint is accepted, ECD chief
      (FAD) is reviewed and signed by ECD’s chief and                 reviews, signs, and sends a letter to complainant
      CR’s Director, and the FAD is sent to the                       and relevant agency so that an investigation is
      complainant disclosing all applicable information
      in accordance with DM 4300-1.


                                                                      Report of Investigation (ROI) – Once ECD
                                                                      requests an investigation, the agency is responsible
                                                                      for contracting with an investigator to provide
                                                                      sufficient, accurate, and unbiased information on
                                                                      the complaint. The Department has 180 days from
                                                                      the formal file date to accept or dismiss the
                                                                      complaint and issue a ROI.



                                                                      After the complainant receives the ROI, he/she has
                                                                      30 days to decide whether the complaint is to be
                                                                      decided by an EEOC administrative judge or CR’s
                                                                      Complaints Adjudication Division (CAD).



      EEOC Administrative Judge – An EEOC                             CAD Decision – CAD is responsible for
      administrative judge’s decision must be made                    developing a FAD based on the facts identified in
      within a 180 days.                                              the ROI. A FAD must be written and submitted to
                                                                      the complainant within 60 days after the
                                                                      complainant’s decision. If during the formal stage
                                                                      the agency and complainant enter into a settlement
                                                                      agreement, CAD reviews the agreement to ensure
                                                                      that it does not violate any regulations or statutes.
      CAD Decision – Within 40 days of the receipt of                 It should be noted that the CR’s Equal Opportunity
      the administrative judge’s decision, CAD is                     and Compliance Division is responsible for
      required to provide a written final decision to the             investigation     of      complaints     concerning
      complainant.                                                    noncompliance with settlement agreements in EEO
                                                                      cases.




USDAOIG-A/60601-04-Hy                                                                                                                Page 25
Exhibit C – Glossary of Terms
                                                                                         Exhibit C – Page 1 of 2

The following words or acronyms have particular meanings when used in the context of the USDA
Equal Employment Opportunity (EEO) Complaint System:

Administrative Judge - An individual assigned by the Equal Employment Opportunity Commission
(EEOC) to conduct a hearing on a complaint, if requested by the complainant.

Agency - One of the primary components (Administration, Office, or Service) of USDA.

Alternative Dispute Resolution - Any of a number of conflict resolution techniques listed in
DR 4710-1, “Alternative Dispute Resolution,” which use a neutral third party to assist the complainant
and agency in resolving EEO complaints, including, but not limited to, mediation, facilitation, and
arbitration.

Basis - The prohibited factors of discrimination (i.e., race, color, sex, age [over 40], religion, national
origin, disability, parental or marital status, political beliefs, sexual orientation, genetics, or reprisal).

Complaint - An allegation, formal or informal, that an action or decision in USDA (if an individual
complaint) or a policy or practice of USDA (if a class action complaint), which has personally affected
an employee was discriminatory on a prohibited basis.

Complaint Process or System - The entire set of actions possible on an EEO complaint, including
counseling, acceptance, rejection, dismissal, investigation, resolution, hearing, decision, appeal, and
civil action.

Days - all timeframes referenced in days are calendar days.

EEO Counselor - An individual assigned to discuss and attempt to resolve informal EEO complaints
within USDA.

EEOC Form MD-715 Report – EEOC requires agencies to report annually on the status of activities
undertaken pursuant to its equal employment opportunity program under Title VII and activities
undertaken pursuant to its affirmative action obligations under the Rehabilitation Act. Agency reports
must include a plan that sets forth steps it will take in the future to correct deficiencies or further
improve efforts undertaken.

EEOC Form 462 Report - EEOC requires all Federal agencies and departments with 100 or more
employees to provide EEO complaints data, including counseling data, on form number 462 no later
than October 31, for the prior FY.

Employee - An individual employed, previously employed, or seeking employment (applicant) in any
position within USDA.



USDAOIG-A/60601-04-Hy                                                                                  Page 26
Equal Employment Opportunity Commission - The EEOC is the Federal agency with the overall
responsibility for implementing Title VII (Employment) of the Civil Rights Act of 1964 and other laws
prohibiting discrimination in Federal employment.

Final Agency Decision – FAD means a conclusive determination, by USDA, of a formal equal
employment opportunity or program complaint that disposes of all of the issues involved. FAD
includes findings on each issue of alleged discrimination raised by the complainant, as well as
appropriate remedies and relief when discrimination is found. The final decision also informs the
complainant of his or her right to appeal to the EEOC or to file a civil action in the appropriate U.S.
District Court, and of the applicable time frames.

Formal Complaint - An allegation that was not resolved in counseling and which has been filed with
the USDA for investigation and additional processing.

Informal Complaint - An allegation concerning any issue that is presented to an EEO counselor.

Issues - The action or decision (including a failure to act or decide) or a policy or practice of USDA
that has affected an employee which is alleged to have been discriminatory.

Report of Investigation - A report sent to the complainant that contains information to address each
accepted issue and basis in the complaint.




USDAOIG-A/60601-04-Hy                                                                          Page 27
Exhibit D – Agency’s Response
                                Exhibit D – Page 1 of 11




USDAOIG-A/60601-04-Hy                          Page 28
                        Exhibit D – Page 2 of 11




USDAOIG-A/60601-04-Hy                  Page 29
                        Exhibit D – Page 3 of 11




USDAOIG-A/60601-04-Hy                  Page 30
                        Exhibit D – Page 4 of 11




USDAOIG-A/60601-04-Hy                  Page 31
                        Exhibit D – Page 5 of 11




USDAOIG-A/60601-04-Hy                  Page 32
                        Exhibit D – Page 6 of 11




USDAOIG-A/60601-04-Hy                  Page 33
                        Exhibit D – Page 7 of 11




USDAOIG-A/60601-04-Hy                  Page 34
                        Exhibit D – Page 8 of 11




USDAOIG-A/60601-04-Hy                  Page 35
                        Exhibit D – Page 9 of 11




USDAOIG-A/60601-04-Hy                  Page 36
                        Exhibit D – Page 10 of 11




USDAOIG-A/60601-04-Hy                   Page 37
                        Exhibit D – Page 11 of 11




USDAOIG-A/60601-04-Hy                   Page 38
